                         UNITED STATES NUCLEAR REGULATORY COMMISSION

                                                                              NUREG/BR-0304
                                                                              Volume 2, Number 2
                                                                              September 2004




                 OIG Information Digest
                               Management and Internal Controls
                               Management Con-             structure and an or-         prevent employees
                               trols: Business             ganization’s policies        from misappropriating
                               and Personal                and procedures -- as         them, and payroll con-
                                                           tools to help program        trols to ensure that only
      Inside this              Needs                       and financial managers       bonafide employees or
        issue:                                             achieve results                        contractors re-
                               What are management         and safeguard the
  Management and         1-3                                                                      ceive payment.
                               controls? Are they for      integrity of their
  Internal Controls                                                                               But, manage-
                               accountants and finan-      programs. On a                         ment controls
                               cial organizations only?    personal level,                        also include a
  Computer Security      3-5   Why do I need them?         management con-                        programmatic
                               Why does NRC need           trols are tools to                     aspect. In
                               them? Who needs             protect us from                        other words,
                               management controls?        personal or finan-
  When Good Credit       5                                                                        controls are
  Card Cops Go Bad                                         cial harm. Manage-           needed to ensure that
                               You may not realize it,     ment controls are the        a program is function-
                               but management con-         proverbial barn door         ing as management in-
                               trols are vital to almost   that we want to close.       tends. Let’s examine
                               all the important func-
                                                                                        one or two NRC func-
                               tions we carry out in       Are management               tions to see how man-
                               our professional and        controls for account-        agement controls keep
                               personal lives. They        ants and financial or-       a program or activity
                               help us to maintain or-     ganizations only?            on track.
 Special points of             der and control, and        Absolutely not! Many
    interest:                  most importantly they       people                       NRC has many techni-
                               protect us from harm        think of
· Are You a Safe Cyber                                                                  cal review processes
  Surfer?                      and give us a measure       manage-                      for all areas of its regu-
                               of confidence that our      ment con-                    latory activities. For
· Spyware Problems             business and personal       trols as                     example, one such ac-
                               activities meet our ex-     something
· Visa/Mastercard Scam                                                                  tivity is the review
                               pectations.                 needed                       process for reactor
                                                           only to pre-                 technical specifica-
                               What are manage-            vent finan-                  tions. To properly re-
                               ment controls? The          cial harm to an organi-      view any set of techni-
                               Office of Management        zation. For example, a       cal specifications, the
                               and Budget defines          company needs con-           agency needs a pro-
                               management con-             trols over its assets to     cess (management
                               trols -- organizational
                 Page 2                                                               OIG Information Digest




Management and Internal Controls                     (Cont. from page 1)


control) to ensure that the ap-      deactivate the alarm. The code        side, we use them to ensure that
propriate organizations review       is the control. Imagine what          financial assets are protected
and approve the specifications.      could happen if we did not safe-      and that programs are imple-
Another example of manage-           guard our passwords or alarm          mented as intended. On the
ment control is the document         codes. In order to ensure that        personal side, controls protect
concurrence process. This            our checking account is not           us from personal and financial
process is designed to ensure        overdrawn, we should maintain         harm. Inadequate controls may
that all parties to a document       a running balance. The running        ultimately spell disaster for any
concur on its content. From an       balance is the control. The finan-    business or individual.
investigative point of view, man-    cial consequences of overdraw-
agement controls or rules are        ing an account can be substan-        Audit Summaries
enforced to ensure that no civil     tial.
or criminal law is broken and                                              NRC’s Personnel Security Pro-
there is no monetary loss to the     Who needs management con-             gram
Government. Every facet of           trols? Everyone and every or-
NRC operations needs manage-         ganization needs management           OIG found that personal security
ment controls.                       controls in one form or another.      program weaknesses pertaining
                                     Even the most seemingly               to contractor access to NRC fa-
Why does NRC need them?              unlikely entities need controls.      cilities could be placing the
They serve to ensure the integ-                                            agency’s information, facilities,
rity and efficiency of the agency,   In 1988, TIME magazine ran a          and staff at risk. Specifically,
protect the health and safety of     story about how a Federal Bu-         program requirements were not
the public, and prevent fraud,       reau of Investigation agent infil-    consistently followed and the
waste, and abuse within agency       trated an organized crime family      agency lacked a process for ex-
programs.                            and was ultimately instrumental       peditiously resolving final access
                                     in gaining more than 100 Fed-         decisions for IT
Why do I need them? In our           eral convictions of organized         contractors
personal lives, management           crime members. The article ex-        with temporary
controls could simply be referred    plained how the agent stayed          access when
to as controls. These controls       undercover for several years,         issues arose in
safeguard and protect us. Let’s      despite reservations from sev-        OPM back-
look at a few examples.              eral criminal associates. Ac-         ground investi-
                                     cording to the article, the direc-    gations. Program lapses oc-
Before we can                        tor of the New York State Or-         curred because managers had
set up an ATM                        ganized Crime Task Force              not effectively documented or
account, we                          stated, "The Mob, which once          communicated contractor secu-
establish a                          ran thorough security checks on       rity policies to NRC staff ex-
password to                          any stranger, simply lacked the       pected to carry out these poli-
prevent unau-                        ‘discipline and internal controls’    cies. As a result, some contrac-
thorized per-                        to unmask the agent...."              tors were inappropriately given
sons from with-                                                            access to NRC facilities and
drawing money from our ac-           Summary - Management con-             data, potentially jeopardizing
count. The password is the con-      trols bring order, discipline, and    agency employees and informa-
trol. An alarm system for a          protection to organizations and       tion.
home has a code to activate and      individuals. On the business
                                                                                                          Page 3




Management and Internal Controls                      (Cont. from page 2)


Computer Security Reviews             bills may also be reviewed for in-    downloaded information from
                                      appropriate use. Based on such        such sites onto their NRC com-
The security reviews found that       information, OIG determined that      puter. Thus, while it is likely that
the controls implemented by the       an NRC employee in-                   the software effectively prevents
regions are generally effective in curred $43,000 in pager                  some individuals from accessing
reducing the risks associated with charges for usage not re-                prohibited sites, it cannot entirely
their operations. However, sev-       lated to his official duties.         prevent such activity.
eral areas needed improvement.
These areas included administra- In other cases, individu-
tive security controls, information als manipulate or undermine ex-
                                                                            Computer Security
technology controls, and physical isting controls to try to hide illegal
security.                             activities. For example, in 2001,
                                      OIG determined that NRC’s park-       Are you a safe cyber-
Management Controls Can               ing garage contractor had stolen      surfer?
Facilitate OIG Investigations         $1,713 in visi-
                                      tor parking                           When using your computer at
Management controls are a factor fees from                                  home to make a purchase online,
in virtually all OIG investigations – NRC by issu-                          do your banking, pay bills over the
in some cases, this is because        ing two types                         Internet, check in with your office
illegal or inappropriate activity is  of receipts to                        by e-mail, or just surf the Web for
traceable through the review of       patrons. One type of receipt was      fun, you open a gateway to the
official records, which are a form legitimate; duplicates of these          personal information on your com-
of management control. For ex-        were kept to record customer          puter, including credit
ample, OIG criminal investigators, payments owed to NRC. The                card numbers, bank
in furtherance of their official du-  other receipts, however, were not     balances, and more.
ties, may review employees’ Gov- legitimate. These unofficial re-           You may also be in for
ernment-issued credit card bills to ceipts were given to patrons, but       costly computer repairs
identify suspected inappropriate      copies were not maintained and        and lost data, due to
charges when suspicions about         payments recorded on them were        damaging computer viruses that
inappropriate use are brought to      not reported to NRC.                  can invade your computer through
the attention of the OIG. Over                                              e-mail connections.
the past 2 years, through such        In a third scenario, prohibited be-
investigations, OIG identified six    havior can occur despite the exis-    Fortunately, there are steps you
employees who used their Gov-         tence of management controls          can take to protect your personal
ernment-issued                        intended to prevent                    computer, your information, and
credit card for non-                  such activities. For                   your peace of mind from com-
work related pur-                     example, although                      puter hackers who try to slow
chases. While                         the agency uses                        down network operations or,
most of these em-                     software that re-                      worse yet, steal personal infor-
ployees either paid                   stricts employee                       mation to commit a crime. Here
for or intended to pay for these      access to porno-                       are some helpful tips from the
charges, personal use of the          graphic and other                      security experts at the Federal
Government credit card is prohib- Web sites, OIG has                         Trade Commission (FTC).
ited by NRC policy. In a like         substantiated that at least 11 em-
manner, cell phone and pager          ployees have, over the past year,
                  Page 4                                                                                  OIG Information Digest




Computer Security             (Con t. from p a g e 3)




Some of these tips are well known                       certain Web site, creative little      Adware is any software applica-
by computer users, but they are                         banners or characters jump             tion in which advertising banners
always useful reminders.                                across your screen telling you         are displayed while a program is
                                                        you’ve won a prize? Or, they           running. The authors of these
·   Make sure your passwords                            might suggest                          applications include an addi-
    have both letters and numbers                       that to make                           tional code that delivers the ads,
    and are at least eight charac-                      your program                           which can be viewed through
    ters long.                                          run faster you                         pop-up windows or through a
                                                        should click on                        bar that appears on a computer
·   Install anti-virus software, par-                   this button?                           screen.
    ticularly the kind that updates                     Well, don’t be
    automatically.                                      fooled by these                        Spyware and adware quietly and
                                                        cute little advertisements because     secretly capture
·   Prevent unauthorized access                         they just may be what are called       everything you do
    to your computer through fire-                      spyware or adware.                     online. Unlike the
    wall software or hardware es-                                                              instant impact of a
    pecially if you are a high                          Spyware is software that aids in       virus, spyware and
    speed user. A properly config-                      gathering information about a per-     adware programs
    ured firewall makes it tougher                      son or organization without their      never reveal their
    for hackers to locate your                          knowledge and consent and              presence on your personal com-
    computers. Some firewalls                           which may send that information        puter.
    block outgoing information as                       to another entity. It has reportedly
    well as incoming files. That                        caused 50 percent of all crashes       Spyware can seriously interfere
    stops hackers from planting                         on computers using Microsoft sys-      with your computer operations
    programs called spyware that                        tems. Spyware can                      and compromise your privacy.
    cause your computer to send                         also assert control                    Spyware makes your computer's
    out your personal information                       over a computer with-                  performance and Internet ac-
    without your approval.                              out the user’s knowl-                  cess slow to a crawl. Serious in-
                                                        edge. There are                        fections can lead to a corrupt
·   Don’t open a file attached to                       many “click-on”                        hard drive and exposure of pri-
    an e-mail unless you are ex-                        download tricks that                   vate information, user names,
    pecting it or know what it con-                     spyware programs use to sneak          and passwords, or, at worst,
    tains.                                              onto computers, unbeknown to           identity theft. Pop-up ad prob-
                                                        the user. It is commonly installed     lems, a different homepage that
·   Never forward any e-mail                            on your PC as a hidden addition        you can't change, and a slower
    warning about a new virus. It                       to a legitimate program, by visiting   PC, may be indications of a spy-
    may be a hoax and could be                          Web sites, or through spam e-          ware problem.
    used to spread a virus.                             mail. For example, some spy-
                                                        ware programs use deceptive            A cookie, is a piece of informa-
Spyware or adware...are they                            pop-up windows so that if a user       tion sent by a Web server to a
the same?                                                     clicks on the “Close Window”     Web browser that
                                                              button, that click counts as     the browser is ex-
Have you noticed, while                                       consent for the software to      pected to save
you are surfing the Inter-                                    be installed.                    and send back to
net or as you log onto a                                                                       the Web server
                                                                                                                    Page 5




Computer Security            (Cont. from page 4)


whenever the browser makes ad-             ·       Be wary of clicking on any          asks for very little–so the word
ditional requests of the Web                       pop-up ad even to close the         “fraud” doesn’t enter your mind
server. Cookies are another                        window.                             until you get your statement and
means of tracking your surfing                                                         find it filled with charges you
habits and can be used by spy-             ·       Install an anti-spyware pro-        don’t recognize.
ware to gather more information                    gram, install a firewall, and en-
about you. Delete your cookies                     sure your virus protection is       Where did you go wrong? By
on a regular basis and never open                  up-to-date.                         giving away those three little
unsolicited e-mail. If you do not                                                      numbers on your
know who an e-mail is from, de-            By following these guidelines you           signature strip.
lete it. Other actions consumers           should be safe from outside enti-           They are your
can take:                                  ties collecting private information         unique “card
                                           about you.                                  verification
·   Implement new security up-                                                         value,” and a con
    grades made available by               When VISA’s Good Cop                        artist who al-
    your Internet provider.                                                            ready has your
                                           is a Bad Egg.                               card number can use them to
·   Install anti-virus programs and                                                    convince online and phone mer-
                                           A call from “Security” can trick you
    update them regularly.                                                             chants that he actually has your
                                           into revealing what you shouldn’t.
                                                                                       card and hasn’t just ripped off
·   Install anti-spyware programs                                                      your number.
                                           You receive a telephone call from
    to detect or block known spy-
                                           a person claiming to be from the
    ware. Some spyware pro-                                                            Officials at VISA and Master-
                                           Security and Fraud Department at
    grams are free and can be                                                          Card are well aware of the
                                           one of the major credit card com-
    downloaded from the Internet.                                                      scam, which seems to have
                                           panies stating that your card has
    Others are available at a                                                          blossomed this past spring. The
                                           been flagged for an unusual pur-
    nominal cost. Remember to                                                          giveaway is that the caller is
                                           chase pattern. They ask, “Did you
    update these on a regular ba-                                                      asking for personal data. If you
                                           purchase six Dell computers at
    sis.                                                                               ever get such a request, explain
                                           three different locations in your
                                                                                       that you don’t discuss your
                                           area for $3,197.23 each?” “No,”
·   Be careful when browsing on-                                                       credit card over the phone and
                                           you answer without hesitation.
    line and make sure you know                                                        say you’ll call back. If the caller
                                           “Then we will issue you a credit,”
    exactly what a “free” program                                                      is legitmate, he’ll understand.
                                           the caller says. “To verify that
    will do before downloading or                                                      Then dial the 800 number on
                                           you’re in possession of your card,
    installing it.                                                                     your card to see if his story
                                           please read off the last three num-
                                                                                       checks out.
                                           bers that appear on the back.”
·   If asked whether you want to
                                           You are more than happy to
    install a program, make sure
                                           agree. The caller gives you
    you know who’s distributing it.
                                           a confirmation number and
    Before clicking “yes,” ask
                                           encourages you to tele-
    yourself whether you know
                                           phone with any questions
    enough about that company to
                                           you may have and then
    trust them.
                                           hangs up. He never asks
                                           for your card number–he
United States Nuclear Regulatory Commission

Office of the Inspector General
Mail Stop T5D-28
11545 Rockville Pike                                We’re on the Web!! Log
Mail Stop T 5D28
Rockville, MD 20852                                 onto the NRC Website
                                                    and click on the links
Phone: 301-415-5930                                    to the Inspector
Fax: 301-415-5091
Hotline: 800-233-3497                                 General Hotline!




         TDD now available at the Office of the Inspector General.
         For any complaints of fraud, waste or abuse please dial
         1-800-207-2787.
